<html>
<title> - ORGAN HARVESTING: AN EXAMINATION OF A BRUTAL PRACTICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


         ORGAN HARVESTING: AN EXAMINATION OF A BRUTAL PRACTICE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2016

                               __________

                           Serial No. 114-170

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE         
20-533PDF                         WASHINGTON : 2016                          
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York

                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. David Matas, senior legal counsel, B'nai Brith Canada........     4
Mr. Ethan Gutmann, journalist....................................    12
Francis L. Delmonico, M.D, professor of surgery, Harvard Medical 
  School.........................................................    18
Charles Lee, M.D., director of public awareness, World 
  Organization to Investigate the Persecution of Falun Gong......    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. David Matas: Prepared statement..............................     7
Mr. Ethan Gutmann: Prepared statement............................    15
Francis L. Delmonico, M.D: Prepared statement....................    20
Charles Lee, M.D.: Prepared statement............................    26

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Francis L. Delmonico, M.D: Statement for the record..............    56
Charles Lee, M.D.: Internet link to material submitted for the 
  record.........................................................    58

 
         ORGAN HARVESTING: AN EXAMINATION OF A BRUTAL PRACTICE

                              ----------                              


                        THURSDAY, JUNE 23, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

        Global Human Rights, and International Organizations and

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Dana T. 
Rohrabacher (chairman of the Subcommittee on Europe, Eurasia, 
and Emerging Threats) presiding.
    Mr. Rohrabacher. I call this joint hearing of the Europe, 
Eurasia, and Emerging Threats Subcommittee and the Subcommittee 
on Africa, Global Health, Global Human Rights, and 
International Organizations to order.
    Thank you, Chairman Smith, for agreeing to hold this 
hearing. The Chinese Communist Party has one of the largest 
forces for evil in the world today. The systematic government-
sponsored harvesting of organs is a monstrous crime.
    The Chinese regime not only deprives its people of their 
basic rights on a daily basis but literally steals their body 
parts for a profit.
    Due to the tireless work of human rights defenders, 
journalists and investigators, the truth about what the Chinese 
have been doing for years is now becoming known to the world.
    Just last week, the House passed a resolution specifically 
on this target. Today, we have some of those very researchers 
and investigators here with us and they will bring up to date 
about what is going on inside China.
    Their updated report, ``Bloody Harvest: The Slaughter,'' 
just released yesterday tips the scale at nearly 600 pages in 
length and it is truly an impressive work.
    I am pleased to hear that European parliaments will be 
holding similar events to what we are doing today to discuss 
organ harvesting and this report.
    It is significant to highlight that while the Falun Gong 
practitioners, a peaceful and holy Chinese movement, continue 
to suffer greatly at the hands of the CCP, they are not the 
only victims of forced organ harvesting.
    Organ harvesting is just one of many techniques the Chinese 
state security uses. But there are other groups who use this 
and other groups that have been victimized other than just the 
Falun Gong.
    Lastly, the problem of organ theft and organ trafficking is 
a global one. The state-sponsored nature of what happens in 
China is especially unsavory but the practice takes place 
worldwide.
    The black market for organs is estimated to be worth over 
$1 billion a year and it is vital that we hold the Chinese 
Government accountable. If we don't, the wrong message will be 
sent all over the world, undermining efforts to prevent organ 
trafficking where it is done.
    In a moment, I will introduce our witnesses. But I also 
want to take this moment to recognize some of the distinguished 
guests in our audience and especially David Kilgour, who is a 
member of the Canadian Parliament.
    We have been working on this together for many years. He is 
a true leader in this issue and a truly moral giant in this 
era. He has played a key role in producing the updated report 
and David, we all thank you for the hard work that you put into 
this.
    And without objection, all members will have 5 legislative 
days to submit additional questions or extraneous material. We 
will then--I will have--Mr. Smith will make his opening remarks 
and then we will introduce the witnesses and go on from there.
    Mr. Smith.
    Mr. Smith. Thank you very much. I would like to say to my 
dear friend and colleague, Dana Rohrabacher, for organizing 
this important hearing.
    There are far too few people willing to speak out about 
human rights abuses with such clarity and consistency. As a 
former speechwriter for President Ronald Reagan, Dana 
Rohrabacher knows how to cut right to the heart of the matter.
    He has done so with excellence since I have been here in 
Congress. I have been now serving 36 years as a Member. So I 
want to thank him for his extraordinary leadership on human 
rights issues around the world and including and especially in 
China.
    As Chairman Rohrabacher mentioned, we co-chaired a similar 
hearing in September 2012. It is disheartening in the extreme 
that we are here again, 4 years later, with the issue and this 
terrible horrific human rights abuse getting worse.
    The scope of organ trafficking is much larger now, a 
worldwide problem. The conflict in Syria has created a black 
market for human organs. ISIS has sanctioned the harvesting and 
sale of organs from a ``apostate's body into a Muslim's body'' 
even if the donor is still alive during harvesting.
    We have also seen horrific evidence of Eritrean victims in 
Sinai whose organs are brutally removed and sold if their 
families are unable to pay the traffickers' ransom.
    However, the biggest problem is, by far, China, where 
government-sanctioned harvesting of organs from executed 
prisoners, including prisoners of conscience, has gone on for 
decades.
    Twenty years ago, working with the great and now late Harry 
Wu, I chaired a human rights hearing in my subcommittee with a 
Chinese security official who testified that he and other 
security agents were executing prisoners with doctors and 
ambulances there in order to steal their organs for transplant.
    Since then, this horrific practice has skyrocketed. Organ 
trafficking is a global problem where trafficking gangs, 
terrorist organizations, and government entities sell organs 
for profit. A global problem requires a global response.
    The U.S. Congress is taking steps to address the problem. 
The House passed H.R. 3694, two weeks ago, the Strategy To 
Oppose Predatory Organ Trafficking Act, amending the 
Trafficking Victims Protection Act of 2000 and requiring more 
diplomatic action in reporting on the issue. The bill also 
denies visas to doctors and officials complicit in organ 
trafficking.
    This is a start, and it is only a start, and hopefully the 
Senate will pass the bill soon.
    Four years ago, we asked for more evidence of organ 
harvesting in China and we are now getting some very serious 
evidence. The Chinese Government said it is moving toward 
adherence to ethical standards and accepted procedural 
guidelines.
    But in the absence of accurate information and any 
semblance of transparency and with a history of repression and 
censorship to cover past abuses can their assurances be in any 
way believed?
    It is important to remember that the Chinese Government has 
been trafficking in organs for profit for decades. Let me just 
say many things have changed in China over the past 20 years, 
but as witness testimony today shows, maybe not so much as 
changed in the area of organ harvesting.
    The Falun Gong repression is especially brutal, ugly, and 
vicious. I strongly believe that the 17-year campaign to 
eradicate Falun Gong will be seen as one of the great shames of 
recent Chinese history.
    That more people are not crying out for change, 
accountability and justice on the issue of organ harvesting or 
the repression of the Falun Gong is sad. But that has to 
change, too. This hearing helps to bring these issues into 
sharp light and to bring scrutiny to them.
    What adjectives do we use to describe what Chinese doctors 
and hospitals have been doing these past decades? How can we 
describe doctors who engage in forced abortions and 
sterilizations and gendercide, the extermination of the girl 
child, as we have seen in China?
    How can we understand doctors who experiment on prisoners 
of conscience detained in psychiatric hospitals? It is all 
reminiscent of what happened during World War II in some of the 
camps including Camp 731 when people were horrifically abused, 
in that case by Chinese conquerors in China. And now the 
Chinese Government and the doctors are doing it themselves.
    Ordinary words like concerned, disturbed, or shocking just 
don't seem to be adequate. We tend to reserve words like 
barbaric for truly horrible crimes and this is barbaric.
    The Department of State and the international medical 
community must do a detailed analysis and studies on the claims 
made by respected researchers here today and by Falun Gong 
practitioners. Our State Department has done far too little. 
That, too, has to change.
    I yield back and I thank my friend for calling this 
hearing.
    Mr. Rohrabacher. Thank you very much, Chris, and I would 
like to now introduce our witnesses.
    David Matas is an international human rights lawyer based 
in Canada. He has written extensively on organ harvesting in 
China including co-authoring ``Bloody Harvest'' with David 
Kilgour, who I just mentioned. He is one of the co-authors of 
the updated report and we will be hearing more about that in 
just a moment.
    Also, Ethan Gutmann, who is--is it Gutmann or Gutmann? 
Whichever. You know, like Rohrabacher--they say how do you 
pronounce Rohrabacher.
    As a China analyst and a human rights investigatory, he has 
written widely on China including the book ``Losing the New 
China: The Story of American Commerce, Desire and Betrayal.'' 
He is a former policy analyst at the Brookings Institute and is 
a frequent television news commentator.
    We have with us Dr. Francis Delmonico, who is a professor 
of surgery at Harvard Medical School and chief medical officer 
for the New England Organ Bank and an advisor to the World 
Health Organization.
    He is also immediate past president of the Transplantation 
Society, the leading international association for 
professionals who are involved with the transplantation of 
human organs and tissues.
    Finally, we have Dr. Charles Lee. He is the director of 
public awareness for the World Organization to Investigate the 
Persecution of the Falun Gong.
    He received his medical education in China and later came 
to the United States where he passed the U.S. Medical Board 
exams and during a visit to China in 2003 he was arrested and 
sentenced to 3 years in prison.
    Since his return to the United States in 2006, he has 
continued his work to expose the crimes of the CCP, especially 
those crimes against the Falun Gong.
    I would ask each of you if possible to limit your verbal 
remarks to 5 minutes and then to have whatever extraneous 
material or supporting material to be put into the record and 
they will be automatically done--will be automatically put into 
the record.
    So Dr. Matas, you may proceed.

STATEMENT OF MR. DAVID MATAS, SENIOR LEGAL COUNSEL, B'NAI BRITH 
                             CANADA

    Mr. Matas. Yes. Well, first of all, I want to thank the two 
committees for convening this hearing and I want to commend the 
co-chairs, Representatives Smith and Rohrabacher, for their--
your leadership in this issue.
    David Kilgour, who is behind me, and I have been 
researching, writing and speaking on the killing of Falun Gong 
for their organs now for over 10 years.
    Ethan Gutmann is the journalist who interviewed us on our 
work and then did his own. Since David Kilgour and I published 
``Blood Harvest,'' the third version of our report in book form 
and Ethan Gutmann published his book, ``The Slaughter,'' we 
three have remained active in writing, researching, 
investigating and speaking on organ transplant abuse in China.
    Yesterday at the National Press Club, we released a 600-
page update with over 2,300 footnotes to update this work and 
it is now available online at endorganpillaging.org.
    With the update, we make our own assessment of transplant 
abuses and our own assessment of transplant volumes. In looking 
at the sources for organ transplants from China in the past we 
have taken Chinese Government official statements of overall 
transplant volume to 10,000 a year at face value and focused on 
attempting to identify the sources for these asserted volumes.
    However, the Chinese Government statistics for transplant 
volumes are not necessarily reliable. One effort which needed 
to be made and which we find we have made is to determine on 
our own what Chinese transplant volumes are.
    We did that by looking at and accumulating the data from 
individual hospitals where transplants occur, almost 900 in 
all. Some hospitals state their transplant volumes. For those 
who do not, we can from their bed counts, personnel strength, 
the rate of growth, technological development, academic 
publications, newsletters, media reports and so on come to a 
conclusion on their transplant volumes.
    We had in the past concluded that the Chinese Communist 
Party was engaged in the mass killing of innocents, primarily 
practitioners of the spiritually-based set of exercises Falun 
Gong but also Uyghurs, Tibetans and select House Christians in 
order to obtain organs for transplants.
    The fact that the evidence we have now examined shows a 
much larger volume of transplants than the Government of China 
has assured us points us to a larger discrepancy between 
transplant volumes and the Government of China identified 
sources than we had previously thought existed.
    The increased discrepancy leads us to conclude there has 
been a far larger slaughter of practitioners of Falun Gong for 
their organs than we had originally estimated.
    What is the volume of organ transplantation in China now 
when we add up all the data from the transplant centers and 
hospitals? Instead of 10,000 a year, we would say that the 
range is between 60,000 to 100,000 transplants a year with an 
emphasis on the higher number. The update at great length 
indicates how we calculate that range.
    Well, what is to be done? We have to commend the House of 
Representatives for what they have already done, which you have 
referred to, Mr. Chairs--the stop organ trafficking act 
proposal as well as the resolution condemning a week ago the 
practice of state-sanctioned organ harvesting in the People's 
Republic of China.
    We welcome the provision in the U.S. code which bars 
provision of visas to Chinese--other nationals engaged in 
coerced organ or bodily tissue transplantation.
    Yet, there is more that could be done. Organ transplant 
abuse in China is primarily a donor source problem, not a 
supply problem, not a patient demand problem. We could end 
transplant tourism into China entirely and organ transplant 
abuse in China would still continue. Yet, we must do what we 
can to avoid complicity in that abuse.
    House Resolution 343 calls on the United States Department 
of State to conduct a detailed analysis on state-sanctioned 
organ harvesting from nonconsenting prisoners of conscience in 
the annual human rights report.
    I would suggest that this analysis must be more than just a 
presentation of the work that we and other researchers have 
done coupled with empty Chinese Government denials.
    The Department of State Bureau of Human Rights to fulfil 
the mandate given by the House should come to its own 
conclusions.
    There also needs to be a more direct confrontation of 
transplant tourism. U.S. legislation should make organ 
transplant abuse and brokerage extraterritorial crimes.
    The legislation should require compulsory medical and 
hospital reporting of all out of country transplantation. That 
sort of reporting is necessary to make a law against complicity 
and foreign transplant abuse workable. Insurers should be 
prevented from covering and paying for abusive transplantation 
abroad.
    Pharmaceutical companies should not be allowed to 
participate in drug trials with patients using organs from 
improper sources.
    In conclusion, let me say when it comes to abusive 
transplantation, we have to think not only of the patient in 
need of an organ but also the source of the organ. It is 
unconscionable to kill a healthy innocent person so that a sick 
person can live. The U.S. must do everything in its power to 
stop that from happening.
    Thank you very much.
    [The prepared statement of Mr. Matas follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Rohrabacher. Thank you, sir.
    Mr. Gutmann.

           STATEMENT OF MR. ETHAN GUTMANN, JOURNALIST

    Mr. Gutmann. Thank you.
    Fourteen years ago, the chairman of AmCham China gave 
testimony on Chinese intellectual property rights violations to 
the CECC. He testified the Chinese leadership was finally 
saying exactly what we wanted them to.
    Yet, for U.S. companies selling to the Chinese market, 15 
to 20 percent of revenue is lost due to counterfeiting. In 
other words, the problem was worse than ever.
    That was Chris Murck. He is my former boss. He taught me 
that reform in China can take time. Eight years later, Murck 
came back to the CECC and testified that counterfeiting was 
present but it was receding and perhaps that is why when I was 
writing my book 7 years after the Kilgour-Matas report I 
assumed I was writing about history.
    How naive. After decades of Western legal exchanges with 
China, Chinese lawyers now face mass arrests. How strangely 
idealistic the words free the Chinese Internet sound today in 
part because we know some American companies have dirty hands.
    So yes, if money is the main issue, you might scratch out a 
stalemate with the Chinese Communist Party. But if the party 
feels threatened, take all the time you like. You will probably 
lose.
    Our update is essentially a balance sheet of organ 
harvesting. Are we winning or losing? The Chinese medical 
establishment commonly claims that China performs 10,000 
transplants per year.
    Yet imagine a typical state-licensed transplant center in 
China. Three or four transplant teams, 30 or 40 beds for 
transplant patients, a 20- to 30-day recovery period. Patient 
demand--300 Chinese waitlisted for organs, not counting foreign 
organ tourists.
    Would it be plausible to suggest that such a facility might 
do one transplant a day? One hundred and forty-six transplant 
facilities ministry-approved meet that general description. 
That yields a back of the envelope answer. You can do it right 
here. Not 10,000 but over 50,000 transplants per year.
    Suppose we actually hold those same hospitals and 
transplant centers to the actual state minimum requirement of 
transplant activity, beds, surgical staff and so on--80,000 to 
90,000 transplants per year.
    Yet, how should we account for the emergency of Tianjin 
First Central Hospital, easily capable of 5,000 transplants per 
year? PLA 309 Military Hospital in Beijing, similar. Zhongshan 
Hospital--the list is extraordinary. A detailed examination 
yields an average of up to two transplants per day--over 
100,000 transplants per year.
    Now, the figures I have given you are based on Chinese 
numbers. Not from official statements but sources like Nurses 
Weekly.
    To understand why organs are readily available we need to 
briefly examine how harvesting evolved over time. In the 1980s, 
it was an opportunistic afterthought to a convict's execution.
    In the mid-1990s, medical vans on execution grounds became 
routine. Experimental live organ harvests were carried out on 
the execution grounds of Xinjiang.
    In 1997, following the Ghulja massacre, a handful of 
political prisoners, Uyghur activists were harvested for a 
handful of aging Chinese Communist Party cadres.
    Now, perhaps those organs were simply prizes seized in the 
fog of war. Perhaps the harvesting of prisoners of conscience 
could have ended there.
    But in 1999, state security launched the campaign to 
eliminate Falun Gong. By 2001, over 1 million Falun Gong 
incarcerated within the Laogai system were subject to retail 
organ testing and Chinese military and civilian hospitals were 
ramping up their transplant facilities. By 2002, it was select 
House Christians. By 2003, it was the Tibetans.
    By 2005, economic opportunism had been replaced by two 
hidden hands--5-year plan capitalism and the party's desire to 
kill off its internal enemies. The result was that a foreign 
organ tourist of means could purchase a tissue-matched organ 
within 2 weeks. Hardened criminals were harvested for organs; 
transplant centers stood to make $60,000, $100,000 or more but 
the rise of the Chinese transplant industry was built on the 
foundation of Falun Gong incarceration.
    In early 2006, the Kilgour-Matas report was published and 
then we get into the business with Wang Lijun and the fatal 
exposure of the Chinese medical establishment.
    In 2012, they promised to move to voluntary sourcing within 
3 to 5 years. Yet, they wrapped it in a semantic trick. The 
phrase ``end organ harvesting of prisoners'' was acceptable. 
The phrase ``end organ harvesting of prisoners of conscience'' 
was unacceptable.
    Thus, the Chinese could avoid speaking about a vast caught 
captive population that doesn't officially exist while the 
acceptable phrase allowed Westerners to hope that prisoners of 
conscience was just a subset of prisoners.
    By avoiding the taboo phrase, both sides could maintain 
their illusions. Yet, throughout all the gyrations of the 
Chinese medical establishment's supposed reform, the 
inconsistent numbers, the dithering over whether a prisoner 
could volunteer their organs, the claim that a voluntary organ 
donation system was magically in place, our update finds only 
continuity. Transplant wings under construction, business as 
usual.
    Now, in conclusion, as I turn to policy, let me begin with 
what can't be done. We cannot solve this problem by pretending 
that prisoners of conscience have not been harvested.
    A Chinese doctor testified to Congress on the harvesting of 
death row prisoners in 2001 from Harry Wu. It caused a ripple, 
not a wave. We are here today, side by side, because the people 
in this room are concerned about prisoners of conscience.
    We cannot verify self-proclaimed medical reform by arranged 
visits to a few Chinese transplant hospitals. In the words of 
Dr. Jacob Levee from the TTS ethics committee and Doctors 
Against Forced Organ Harvesting: ``As the son of a Holocaust 
survivor I feel obliged to not repeat the dreadful mistake made 
by the International Red Cross visit to the Theresienstadt Nazi 
concentration camp in 1944 in which it was reported to be a 
pleasant recreation camp.''
    In short, the medical community cannot solve this problem 
alone. They need House Resolution 343. They need our research. 
And they need new investigations. They need to have oversight 
over Americans going to China for organs and they need the 
support of the American people.
    According to Levee, not a single Israeli has gone to China 
for a transplant since Israel took a stand against organ 
tourism in 2008. Cutting off HMO funding wasn't enough.
    The Israeli surgeons needed to make the point publically 
that no matter how much Chinese money was invested in Israeli 
software, doctors have a special interest in the phrase ``never 
again.''
    Now, for Taiwan rejecting organ tourism to China was even 
more courageous, given the Chinese military threat. But if the 
Taiwanese medical establishment and the political sector can 
join hands, we can too.
    I have been told that this is a Falun Gong issue. No. This 
is the familiar spectre of human genocide. It is cloaked in 
modern scrubs. And even with the united effort we may lose the 
patient. Yet, let us at least enter the operating room with 
clean hands.
    Thank you.
    [The prepared statement of Mr. Gutmann follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                      


 STATEMENT OF FRANCIS L. DELMONICO, M.D, PROFESSOR OF SURGERY, 
                     HARVARD MEDICAL SCHOOL

    Dr. Delmonico. Thank, Mr. Chairman, for the opportunity to 
make these comments.
    I would like you both to know that I agree with the other 
individuals that are making testimony today. The use of organs 
from the executed prisoners is condemnable. It is a 
reprehensible practice.
    It is a disgraceful practice because of the corruption. It 
is a corruption intended to acquire money and not provide care.
    I want to share with you an anecdote that is illustrative 
and I would like to say to both of you that I have been to 70 
countries around this world in the last decade to combat organ 
trafficking.
    In a visit to Riyadh, Saudi Arabia, the physician who is 
sitting next to me at dinner tells me of this incident--the 
mother of a 14-year-old--14-year-old--who undergoes a kidney 
transplant in Tianjin, China and returns home to Saudi Arabia 
and ill within days of the transplant.
    This patient undergoes a biopsy of the kidney because the 
kidney is not working, to discover that the kidney is scarred. 
It is obsolescent. It is not going to function. It never can 
function, and it has been at that time removed from an 
individual that is an executed prisoner.
    This patient, Mr. Chairman, then develops a viral 
infection, this 14-year-old, and that infection should have 
been prevented by medicines that should have been administered 
at the time of the transplant. And the end of the story is that 
she dies. It cost the mother $200,000 in cash for her child to 
die.
    That is why I am in the midst of this issue of organ 
trafficking as a professional not to enable that to happen not 
only in China but anyplace else in this world.
    So it becomes a very corrupt practice by the chain from the 
prison to the patient ward. But I think you both have to know 
that it is not just from within China.
    Patients from the United States and Israel and Canada and 
yes, I know Mr. Gutmann is talking about J. Levee, who is a 
good friend of mine, and I know what the Israelis have done to 
prevent Israelis from going to other locations in this world. 
But it has been there and it has been from Saudi Arabia and 
Canada and Japan that patients go into China.
    That practice is now stopping. Over the course of this last 
decade I have gotten to know someone within China that you know 
in the media--Jiefu Huang--and I want to say to you that from 
my perspective he's a courageous leader because change is 
occurring in China.
    And I know of this by Mr. Gutmann's comment. I have been to 
many cities now within China and been with the younger people 
who are doing the transplants and their future is not to use 
organs from the executed because the transplantation community 
of the world will not let them make presentations about those 
data and they, in their interest to propel their careers, are 
coming away from that practice.
    They are no longer using that organ source, and the 
alternative of having deceased donors within the intensive care 
units is becoming the source of organ donors.
    I know of this as well because of the risk that has been 
personal risk to Jiefu Huang to stay within China and make for 
that change to occur. I know of that personal risk as well for 
his mentee, his young leader that he has mentored who was under 
house arrest for months, that we weren't able to reach him.
    He's a member of the same committee that Mr. Gutmann is 
talking about. Jay Levee is in that committee of the 
Transplantation Society. Jiefu Huang is a member of that 
committee. We couldn't have at him for months.
    But the practice is now changing and he was released. It 
was also through an effort that we wrote to President Xi 
Jinping an open letter that was published in the medical 
literature to call upon China to stop the corrupt practice.
    So I am with the presenters to say to you we agree 
completely on this being a condemnable practice. But it is my 
responsibility and the leadership of the international 
transplant community to go there and try and make change, and 
we are trying to do that.
    And so in my visits and having patient contact, being in 
the wards to see what's going on, I can say to you that that 
experience is not with the use of executed prisoners any longer 
and I have some then hope and optimism that the practice will 
come about to stop and change.
    Can I assure you that it is completely eradicated? No, I 
can't. But that is not my job here to make that assurance to 
you. My job is to say to you that the international community 
does not accept that practice.
    The international community must work with its Chinese 
colleagues to change that practice and that is what has been 
our objective.
    And to make this system of organ donation and 
transplantation in China consistent with the guiding principles 
of the World Health Organization that yours truly helped to 
write and develop, and with the Declaration of Istanbul.
    Again, as you've mentioned, Mr. Chairman, the practice of 
organ trafficking is not isolated to China. You can read last 
week of the revelation in India and I can tell you about it in 
Egypt and in the Philippines and in other locations of the 
world.
    So I would agree with Dr. Matas about his request for China 
to consider extraterritorial jurisdiction about the crime of 
organ trafficking that has now been made plain, clear as a 
money transaction by the Council of Europe.
    We need to help the State Department to organize its TIP 
report--its annual report on the trafficking of human persons. 
We need to make certain that the organ trafficking component is 
made in that edition as well.
    And lastly, I wish to say that if Congress wants to stop--
combat organ trafficking, it can sustain a resolve not to 
permit organ sales in the United States.
    So thank you for the opportunity to make these comments. I 
look forward to your questions and to elaborate further upon 
what has been a decade of experience in this issue.
    [The prepared statement of Dr. Delmonico follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                            

    Mr. Rohrabacher. Thank you, sir.
    And Dr. Lee.

 STATEMENT OF CHARLES LEE, M.D., DIRECTOR OF PUBLIC AWARENESS, 
WORLD ORGANIZATION TO INVESTIGATE THE PERSECUTION OF FALUN GONG

    Dr. Lee. Thank you, Chairman Smith and Rohrabacher, members 
of the committees and the staff members. My testimony has four 
sections.
    Section one is WOIPFG and its investigations into organ 
harvesting. World Organization to Investigate and Persecution 
of Falun Gong was established on January 20th, 2003.
    Up to May 2016 we have published 331 investigative reports 
and have compiled a list of more than 76,000 individual 
perpetrators. We have systematically investigated on the crimes 
on the forced organ harvesting over the last 10 years and we 
have published 43 reports.
    In June 2015, we published a comprehensive report over here 
in which we laid out 1,628 pieces of evidence proving that more 
than 865 hospitals and more than 9,500 surgeons in China who 
have been involved in these huge number of transplant 
operations.
    We have conducted more than 10,000 telephone interviews 
with Chinese Government officials and the surgeons, procured 60 
recording testimonies from high-ranking government officials 
including five CCP Politburo standing committee members.
    These testimonies reveal that the majority of the extracted 
organs were from leading Falun Gong practitioners and that the 
order came from the CCP's highest level.
    Since then, we have published another nine additional 
reports confirming that the organ harvesting on Falun Gong 
practitioners is still happening and in some places might be 
accelerating.
    We have another report over here. We would like to submit 
these two reports to the Congress for the record. So far we 
have--actually, my focus today will be the academic papers 
published by the doctors inside of China, mostly from year 2000 
through 2012.
    So far, we have collected more than 3,000 academic papers. 
Three hundred of them have descriptions on donors. We have 
found evidence proving the existence of the large organ living 
donor pool, strengthening the previous conclusion of harvesting 
organs from living persons by the CCP.
    They are the written testimonies in the public domain 
provided by those doctors who have been involved in this 
heinous crime.
    Section two--medical papers and publications indicate that 
a huge living donor pool exists. Number one, very short waiting 
time; number two, in April 2006, one hospital in Hunan offered 
20 livers and kidneys for free to lure more business. They have 
access to a very large donor pool.
    Number three, the abundance of the donors have even made 
the Chinese medicine hospitals--forensic hospitals, psychiatric 
hospitals, to conduct organ transplant operations.
    Number four--a large number of emergency transplant 
operations. China's Liver Transplant Registration Project was 
started in early 2005. More than 8,000 cases have been 
collected up to December 2006. Among 4,300 cases with available 
data for a timing manner, 1,150 cases were of emergency 
operations which was as high as 27 percent.
    The shortest time to start the operation was 4 hours after 
the patient was admitted. The same database provides that only 
2 percent of the donors were living donors. All the others were 
dead.
    By contrast, only 6\1/2\ percent of liver transplants 
performed at a leading transplant center in Canada from 1994 to 
2008 was for acute liver failure, which needs emergency 
transplant in 48 to 72 hours.
    Canada has a matching system supposed to be much more 
efficient than anything legitimate for matching up in China. A 
more plausible explanation is that it is the donors wait for 
the recipients in China.
    Number five, abundance of donors provide to multiple stand-
by donors for transplantation surgeons. One typical case was 
Huang Jiefu--Huang Jiefu's liver transplant operation in 
Xinjiang on September 28th, 2005. The first donor's liver was 
discarded after Huang opened the abdominal cavity of a cancer 
patient and he discovered that it happened to meet to the 
criteria for a autologous liver transplant.
    He then closed it and contacted Guangzhou City and 
Chongqing City requesting a spare liver in case the autologous 
transplant failed.
    Matching livers were found in both cities in several hours 
and arrived in Xinjiang almost at the same time at 6:30 p.m. on 
September 29th. Another--also another spare liver was found in 
Xinjiang. The operation lasted from 7 o'clock p.m. on September 
29th to 10 o'clock a.m. next day.
    After 24 hours of observation, Huang announced the spare 
livers were no longer needed. The acceptable cold ischemic time 
for liver was less than 15 hours even in China. Therefore, one 
can safely say that the two spare livers brought from Chongqing 
and Guangzhou City could only be two intact living persons.
    Otherwise, the extraction, the flight, the operation and 
the observation time would be at least 50 hours. The spare 
livers would have no value.
    Section three--medical papers indicate that large scale 
kill on demand organ transplant system. Number one, abnormal 
descriptions on the donors.
    One hundred three papers have information about the donors. 
The total number mentioned was 8,710. Eighty papers had the 
ages, from 20 to 40 years old with average in the 20s, while in 
the U.S. average age of deceased donors in 2006 was a little 
over 40.
    The vast majority of the descriptions regarding the health 
condition of the donors are perfectly healthy. There is no 
history of contagious disease, cardiovascular disease, cancer 
or drug abuse, et cetera.
    One might wonder why these young and perfectly healthy 
people would donate their organs and die. Number two, brain 
death in China--a simplified definition of brain death is the 
death of all central neurological tissue, resulting in the loss 
of cerebral functions.
    Strict procedures and long-term observing should be 
implemented before announcing the brain death. In the U.S., 
there were about 6,700 living donors and 8,000 deceased donors 
in 2006. The three major causes of deaths were cerebral 
vascular stroke, head trauma and anoxia, anoxia brain deaths.
    B, in China there is no legal definition or procedure to 
follow to announce a person is brain dead. One article on 
Tengxun net in 2014 cited Huang Jiefu, stating that 90 percent 
of the doctors in China don't know the criteria for brain 
deaths.
    It was still not a good time for China to enact a brain 
death law. One hundred thirty-seven papers described the causes 
of the deaths in over 5,000 donors. Fifty-nine percent were 
brain deaths. Further analysis and review that the vast 
majority of these brain deaths were actually living people.
    C, China's leading expert on brain death, Chen Zhonghua 
from Tongji Medical College, has been exploring using 
internationally accepted brain death criteria in organ 
transplantations.
    An article by his group in Journal of Organ Transplant in 
July 2010 stating that 60 cases of organ extractions were 
conducted from brain death donors in China since 2001. That's 
10 years period of time.
    In July 2006, they conducted the first ever heart 
transplantation using a brain death donor in the country. Chen 
Zhonghua's numbers clearly indicated that to the vast majority 
of these cases of extractions are not from truly brain death 
donors.
    Because it is not a legal practice at all in China to 
announce a patient is brain dead and that there is no formal 
training or certifications for the doctors, they should be 
still alive when the organs were taken.
    D, we found five papers with 22 cases describing the 
procedure of tracheal intubination after the brain deaths. This 
makes no medical sense. The diagnosis of brain death needs 
hours of observation and the testings.
    Tracheal intubation should be--and the tracheal intubation 
should be done in the process or before that in order to save 
the life of the patient.
    These doctors have confirmed that they didn't--they did not 
understand the criteria for brain deaths nor did they care if 
the donors were brain dead. The donors were actually living 
people.
    E, the other three major causes of death in the papers--
cadaver, sudden death and no heart beating--did not give any 
information on how these donors died either.
    Number three, extremely short ischemic time. Warm ischemic 
time here refers to the amount of time that an organ remains 
warm after its blood supply has been stopped or reduced.
    Eighty-nine papers had close to 7,000 cases on the warm 
ischemic time from donors with brain death, cadaver or sudden 
death. Most of them is under 10 minutes. Some mentioned the 
cause of the deaths.
    Six hundred eighty-eight cases were brain dead--brain 
death. One had 117 cases of fresh cadavers with heart beats 
just stopped. With brain death not practicable and almost no 
explainable legitimate cause of death, then why almost all 
organ documents have such short one ischemic time? The most 
plausible explanation is that these donors have been arranged 
to die when the organ procurements need to happen. This is mass 
murder.
    Section four--in six papers 42 doctors admittedly have 
killed at least 677 living people for their organs. Number one, 
general transplants, May 2011, Yang Shou-guo, et cetera, from a 
transplantation center in Shanghai described 298 cases of heart 
transplantation in 11 years from May 2000.
    On donor descriptions it reads 291 hearts were from 
cadavers. Seven hearts were from brain dead donors 18 to 45 
years old, average 27. All donors had no obvious history of 
cardiovascular disease or other major organ diseases.
    Among these 298 cases, after year 2007, 60 hearts were 
extracted when the donors had ventricle fibrillation, or after 
the heart stopped beating and that the rest were extracted 
while the hearts were still beating.
    The authors admitted here that at least 231 healthy young 
people while not brain dead and that their hearts were still 
beating were killed for their hearts.
    Number two--Chinese general practice December 2007, Li Yao-
feng, et cetera, talked about 103 liver transplantations 
beginning in 2004 in the center. It reads, the donors of both 
groups of recipients were healthy young people.
    One of them was brain dead. All others were same blood 
type, cadaveric livers. All ischemic times were between 0 and 5 
minutes.
    The conclusion should be easy to draw. At least 102 young 
people had been killed for their organs.
    Number three--Chinese Journal Hepatobiliary----
    Mr. Smith. Dr. Lee----
    (Off mic comments)
    Dr. Lee. Okay. That's fine. I have, you know, three more 
but these are the published academic papers in which those 
doctors actually, you know, admit they have killed people while 
they are alive.
    The accounts show that the practice of forced organ harvest 
is real and is done on a very large scale. I am going to submit 
these six papers to the Congress for the record and we are 
going to take some time to translate all of them. But these are 
real published papers.
    Thank you very much. Actually, we have----
    Mr. Rohrabacher. Without objection, they will be put into 
the record.
    Dr. Lee. All right. Thank you.
    [The prepared statement of Dr. Lee follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
                              ----------      
                                                     

    Mr. Rohrabacher. You know, some of us we had a rather 
tumultuous night last night and there was--so we didn't get 
much sleep so I apologize for being a little groggy here.
    Let's go into some questions and answers. Now, I am going 
to get an understanding of what we are talking about here, the 
basis, and Dr. Delmonico, you might tell me how long does it--
you have when someone dies, whether they are killed or whether 
they just died, how long do you--do you have before that organ 
is no longer transmittable to another person?
    Dr. Delmonico. Depends on the organ. Depends on the organ, 
Mr. Chairman. So the heart is very sensitive. Once it arrests, 
it becomes complicated for you to be able to transplant it.
    The kidneys can last an hour without circulation and still 
be recovered and transplanted.
    Mr. Rohrabacher. So it is 1 hour for a kidney?
    Dr. Delmonico. For kidneys. But that is why I am saying to 
you it depends on the organ. So the heart is very sensitive. 
Once it arrests and has no circulation it becomes complicated 
to make a successful transplant. But there is research that is 
being done now to do them.
    But in terms of China and what has been practiced, once the 
heart arrests it becomes very difficult to transplant it--
unpredictable. The lungs can last for a couple of hours because 
there is oxygen retained within the lung even after circulation 
subsides. The liver can be no more than about 30 minutes 
without sufficient circulation and it has to be transplanted, 
otherwise it won't function.
    So there is a sensitivity of each organ to ischemia, or an 
absence of circulation, that makes it different from one organ 
to another.
    Mr. Rohrabacher. How about the----
    Dr. Delmonico. Yes, sir.
    Mr. Rohrabacher [continuing]. The cornea in your eyes?
    Dr. Delmonico. The corneas can be--that is a tissue and 
that is a different matter. It doesn't require circulation. It 
can be recovered many hours after the individual has died.
    Mr. Rohrabacher. And how long will it last before it has to 
be transplanted?
    Dr. Delmonico. They can be preserved and transplanted days 
or months later--the cornea.
    Mr. Rohrabacher. And but the other organs you were talking 
about have to be transplanted in a matter of hours.
    Dr. Delmonico. They have to be transplanted in some 
proximity. Now, we are--we are in a research way these days of 
preserving organs that could last for a couple of days and done 
by placing these organs on a machine that can give the organs 
blood and oxygen or cold perfusate and it enables them to last 
for hours and then a couple of days.
    Mr. Rohrabacher. Does Dr. Delmonico's analysis--do you have 
any comment on it from the rest of the panel? Is that accurate?
    Mr. Matas. In terms of the times, I mean, that is 
scientific evidence.
    Dr. Delmonico. This has been a practice for 40 years.
    Mr. Matas. Yes. But my comment on it is that it shows that, 
well, except for corneas there has to be a pretty quick 
turnaround between the death of a source and the 
transplantation. We can't even have several hours. We're 
looking at minutes--60 minutes, maybe 2 hours in the case of 
one type of organ.
    So and what we see in China is sometimes transplantation is 
scheduled on demand of the patient, short waiting times, so 
that--we do not have patients waiting for organs very often but 
rather organs waiting for patients, which means, especially in 
the case of vital organs, that people are being killed for 
their organs.
    Mr. Rohrabacher. Okay. So the--what we should be looking at 
then is not necessarily organs that are put into the icebox and 
flown somewhere but instead should be looking to people who are 
being recruited throughout the Western world and other 
countries but places where people have money who are recruited 
to go to China and perhaps elsewhere with other----
    Dr. Delmonico. Without question.
    Mr. Rohrabacher. Okay. So that should be a major focus as 
to people who are in a state of need because their own organs 
are being--you know, going to hell and they're giving out, and 
we need to be able to make sure that when they are offered 
here, this is your--here, how we can save you is that we are 
not saving them by condemning a prisoner who might be in jail 
for saying something bad about the Communist Party of China.
    Mr. Matas. Yes. I think all of us would agree with that 
statement completely.
    Mr. Rohrabacher. Let me just note, I am happy to hear this. 
I have been worried about this because there are transplant 
centers in Orange County, California and I have been very 
concerned that there might be some kind of organs being brought 
in from China. Now, is that a possibility that we----
    Dr. Delmonico. No, that is not--I should say to you, if I 
may----
    Mr. Rohrabacher. Sure.
    Dr. Delmonico. I had the opportunity to oversee the 
practice of organ donation and transplantation in this country 
as the president of UNOS, the United Network for Organ Sharing, 
that runs the practice of transplantation in the country.
    Every transplant that is performed in the United States 
must be reported to the network--to the government, to the 
Department of Human Health--of Health Human Services.
    So I can make some assurance to you from the system that is 
in the United States every transplant must be reported and 
there would be no opportunity of bringing organs in from China 
to California for a successful transplantation. Were that to be 
known, the centers in Orange County would be closed down that 
night.
    Mr. Rohrabacher. Let me--again, I am not an expert on this 
and what about the organ of the skin? Can skin be sent and 
transported?
    Dr. Delmonico. That is a tissue. So, you know, an organ is 
a vital structure that has blood supply, et cetera, right. But 
there are vital organs that require circulation for their 
maintenance and viability.
    Mr. Rohrabacher. Right.
    Dr. Delmonico. There are tissues such as skin and bone and 
cornea, valves, that do not need continuous circulation for 
their viability. So they can be preserved for an extended 
period of time or they can be processed.
    Mr. Rohrabacher. So skin is not considered an organ. For 
some reason back in high----
    Mr. Matas. It is a tissue, yes.
    Mr. Rohrabacher [continuing]. Back in my days when I got a 
D----
    Dr. Delmonico. It is under the--it is under the----
    Mr. Rohrabacher [continuing]. In health in high school, I 
think.
    Dr. Delmonico. Mr. Chairman, that is fine. We don't know 
about legislation. I will just say to you it is categorized as 
a tissue.
    Mr. Rohrabacher. Okay. And so whether you're saying whether 
it is a tissue or an organ, is there--are there cases--do we 
have cases where skin is being removed and being sold on a 
market by the Chinese Government?
    Mr. Matas. Yes. Well, that is what the plastination is. We 
see these body exhibits and there is some skin involved in them 
as well as vital organs. But, I mean, whole bodies are 
plastinated coming from China.
    And in our update we talk about this plastination as 
similar fact evidence. Many of these plastinated bodies, from 
our conclusions, come from Falun Gong practitioners. But it 
is--the plastination occurs within China and the skin grafts 
and whatever, they occur within China.
    The exportation of particular organs we don't--I mean, we 
have heard rumours about it. We haven't seen any evidence of 
it.
    I wanted to pick up on what the----
    Mr. Rohrabacher. Before we go on, okay. So we haven't seen 
any evidence of particular organs because they--it does require 
time and care and it is quick. But have we seen evidence of 
skin transplants coming from China, the skin being transplanted 
and the corneas and other----
    Mr. Gutmann. I don't know. I mean, the BBC----
    Mr. Rohrabacher [continuing]. And other--these other tissue 
type things?
    Mr. Gutmann. The BBC comes out with a story of a collagen-
based product--you know, various makeup products that use 
tissue from executed prisoners. They come out with that story 
every 3 years. It is kind of regular.
    Mr. Matas. Yes, what I wanted to say though is Dr. 
Delmonico had mentioned that there is compulsory reporting of 
all transplants within China--within the U.S.--within the U.S.
    Mr. Rohrabacher. Yes, that is--the fact is is that people 
go to China----
    Mr. Matas. And that is right.
    Mr. Rohrabacher [continuing]. Specifically and they are--
and we have all the evidence in the world of people going 
there, actually perhaps as part of an organized business 
venture by someone who said, hey, we can get you organs and 
come on our--on this tour and end up at this hospital and then 
you have got your organ and even--and they do not know--even 
they have no idea----
    Mr. Matas. That is right.
    Mr. Rohrabacher [continuing]. That their--that this is 
coming from an involuntary donor.
    Mr. Matas. And that is not--there is no compulsory 
reporting for that. Once you leave and come back there is no 
compulsory reporting.
    Mr. Rohrabacher. Well, maybe one thing that could be done 
that could have an impact is that people are coming back, 
Chris, from China who have had some kind of organ transplant 
operations have to in some way show that they were in some way 
confident that this was not--be coming to them from an 
involuntary contributor.
    Mr. Matas. Well, even just at the very start at least they 
should be required to report--doctors and the hospitals should 
be required to report that this travel occurred and then there 
could be some investigation afterwards.
    Mr. Rohrabacher. Yes. Is there any reason why we shouldn't 
do that?
    Dr. Delmonico. No, no. This is fine. I am very in agreement 
on this one. If a patient goes to a foreign destination for a 
transplant and they are coming back into the United States, 
that is going to require sophisticated care.
    Immunosuppression--the gamut of medications that have to be 
applied to make that organ transplant successful is 
sophisticated. So they are going to come home to a physician at 
one of our transplant centers that knows how to take care of 
those patients.
    So our people in the United States will know if they have 
gone to China or to India or to Pakistan or to any location 
that now is doing foreign patients for money. Okay. Could even 
be Mexico.
    Mr. Rohrabacher. Okay. Well, this is--I will yield to Mr. 
Smith now and we will have a second round of questions.
    Mr. Smith. Thank you, Mr. Chairman, and thank you all for 
your testimonies. Very, very helpful to the subcommittees.
    Just a couple of opening questions. First, to Dr. 
Delmonico. You mentioned Huang Jiefu and we know that he's the 
former Deputy Health Minister and chairman of the Human Organ 
Donation and Transplant Committee, among other things, and my 
question is--and before I get to it, I have worked human rights 
issues in China for 36 years, from my very first election in 
1980 during the Ronald Reagan years.
    Obviously Tiananmen Square was a game-changer and then, 
sadly, it was a major reversal for democracy and universally 
recognized human rights. The students were repressed.
    But throughout it all, beginning of 1982, 1983 I began 
raising the issue of forced abortion and forced sterilization 
in China only to be met with aggressive denials by the Chinese 
Government, by the UNFPA, by many pro-abortion activists in the 
United States and in Europe. And in 1985, in this room, we had 
a hearing.
    I wasn't the chairman at the time. The Democrats ran the 
House. And we had Foreign Service Officers telling us that it 
is over--it is finished, gone, and I put exclamation points on 
that because it was largely a 1983 high-tide experience, as 
they called it, and then Michael Weisskopf of the Washington 
Post did a three-part expose, Page 1--he was the bureau chief 
for the Washington Post--who absolutely blew the lid off the 
apologists who were out there saying there is nothing to worry 
about here, there is no forced abortion and no forced 
sterilization.
    I travelled to China many times. I met with Peng Peiyun, 
the woman who ran the program--a face to face meeting with 
State Department personnel sitting there and she said these are 
all lies. There is no coercion whatsoever in the People's 
Republic of China, despite the evidence that is absolutely 
overwhelming and verified by all the major human rights 
organizations.
    After Tiananmen Square I went to a gulag--a Laogai called 
Beijing Prison Number 1 and the Chinese Government told me that 
there were no political prisoners, as they have said throughout 
every meeting I have ever had with them.
    I saw them. There were 40 of them there and the warden said 
40 of these people were on the Square and they wouldn't let us 
talk to them.
    So when Chi Haotian, the operational commander, came to the 
United States got a 19-gun salute by President Bill Clinton, 
which I thought was an abomination--here is a man who sent in 
the killers that crushed the dissent at Tiananmen Square
    He went to the Army War College and said no one died at 
Tiananmen Square. In 2 days, I put together a hearing in room 
2172 of the Rayburn building as chairman of the Human Rights 
committee. We invited several people who gave compelling 
testimony that students and others were killed at Tiananmen 
Square--that he was a liar.
    So we invited the Embassy to send somebody. We invited Chi 
Haotian to come. Obviously, we had an empty chair. We had that 
very prominently displayed.
    But we had people from Time magazine, the People's Daily--a 
journalist who actually went to prison for trying to expose 
what was happening because he sided with the students--all tell 
their stories and some of the students themselves.
    So Chi Haotian, in the light of all the glare here in 
Washington, DC, said nobody died at Tiananmen Square. A couple 
weeks ago I had another hearing on torture in China. There have 
been two horrific reports--horrific in terms of what they 
found--by the special rapporteur for torture in China.
    This is the U.N. special rapporteur, and we had people at 
this hearing including one Tibetan Buddhist who told us how he 
sat in the tiger torture chair for 1 month and 22 days. Had a 
large picture of what it looked like and we've had Christians, 
Pentecostals, Falun Gong, and others all tell us how they had 
been subjected to this horrific torture chair.
    It is only one of many tools--horrible tools used by the 
Chinese Government. Previously, 20 years before that, I had a 
hearing of six survivors of the Laogai including a Tibetan 
Buddhist monk, Palden Gyatso, who brought in the cattle prods 
that were used under his arms, on his genitals, in his mouth, 
and when he tried to get in through security here in the 
Rayburn building they stopped him.
    I had to come down and escort him and he said this is what 
they do to us every single day. I have raised that issue with 
the Chinese Government in Beijing, in Shanghai, and here in the 
United States through hearings, through meetings, over and over 
again and they categorically deny that there is any torture, 
and that the torture chair--the tiger chair--does not exist.
    On human trafficking I have written four major laws--the 
major law on human trafficking known as the Trafficking Victims 
Protection Act. China is a basketcase when it comes to labor 
trafficking and sex trafficking, a magnet in large part because 
of the missing girls, tens of millions of girls who don't exist 
because of gendercide--the direct killing through sex-selection 
abortion of the girl child--and that has led to a magnet effect 
of trafficking. Plus, they announced that they were getting rid 
of the Laogai system and it was another subterfuge because they 
didn't. They just transferred that whole process.
    I chair the Congressional-Executive Commission on China as 
well. We were hopeful that this was real and durable. It was 
actually not real and durable. It was just a transfer of how 
they deal with this idea of reform through labor and it is just 
as egregious as it was before.
    I could go on in every category of human rights. There is 
censorship. I held the hearings with Google, Microsoft, and 
Cisco sitting here under oath saying that they are not part of 
the censorship.
    So if you put ``Tiananmen Square'' in what was then 
google.cn, you got wonderful pictures of happy tourists. If you 
put it into Google here in the United States you got pictures 
of tanks. So censorship is very real and I tried it a Beijing 
Internet cafe and I couldn't get my name. When I put in 
anything about torture I got Guantanamo and I got what the 
Japanese did, and it was horrible, to the Chinese during World 
War II.
    But nothing about Manfred Nowak's report as the Special 
Rapporteur on torture, which was a scathing indictment of the 
Chinese's systematic use of torture against Falun Gong, against 
Christians, against Tibetan Buddhists, Uyghurs, and others.
    So my question is about credibility. You mentioned in your 
testimony that Dr. Huang Jiefu spent time under house arrest.
    Dr. Lee. That was Wang Haibo.
    Mr. Smith. Okay. So he was not under house--but he works 
for the government. He does work for the government. He's right 
hand to Xi Jinping. He was Deputy Health Minister. Was he not 
Deputy Health Minister? No, let me ask you. Was he Deputy 
Health Minister?
    Mr. Matas. That's the question--was he Deputy Health 
Minister.
    Mr. Smith. That is the first question. Is he aligned or 
part of the Government of China?
    Dr. Delmonico. Jiefu Huang has been part of the government, 
obviously.
    Mr. Smith. Has been. Okay.
    Mr. Gutmann. If I may just respond----
    Mr. Smith. No, let me finish it. Then I'll ask you.
    Mr. Gutmann. After you then, please.
    Mr. Smith. Please. Thank you.
    He has been part of the government and he may be a very 
sincere upright very focused man and wants to get this right. 
But he works for a government that systematically says things 
don't happen.
    Now, my question would be how do you independently verify? 
In a country that is closed as it is, I don't know if you have 
access to the military hospitals where this practice appears to 
have happened.
    They won't allow teams to go into their prisons from the 
International Red Cross to look at prison conditions. They 
won't allow it. How do you independently verify that even 
though he may be very sincere that anything he says, zero 
foreign customers for organ trafficking in 2016, how do you 
independently verify that when there has been such a backdrop 
of terrible duplicity, lies, and deception on the part of the 
government? Trust and verify. How do you do it?
    Dr. Delmonico. I am not an apologist. I am not here to tell 
you not to worry. I am not here to verify. That is not my job.
    My job is to say to you that the international community is 
trying to make change within China and work with those 
professionals that want to develop a system that conforms with 
the guiding principles of the World Health Organization and the 
Declaration of Istanbul.
    That is my job. So let me say to you candidly I respect you 
greatly, Congressman Smith. I know of all the things that you 
recited for us this afternoon in your efforts. I have been in 
the midst of those for the last decade hearing the same things 
that you have heard.
    The people of China said the very same things--we are not 
using the organs from the executed. They denied it. However, in 
this past decade, what has happened?
    The state council no longer officially sanctions that 
practice. Whether it is going on or not, I can say to you that 
is a change.
    I have met with the Minister of Health and said to her that 
if she wants China to ascend in the leadership of organ 
donation and transplantation in this world, they must stop the 
use of organs from the executed because there will be no 
presentations of such an experience in international fora or in 
the medical literature such as the New England Journal of 
Medicine or the transplantation literature. It won't happen, 
Madam Minister. It is not going to happen.
    So I have been just as candid in my relationship with the 
Chinese as you have been, sir, and I am not here to verify or 
make credible.
    I am here to say to you that there is a move within the 
country to change and the transplantation community recognizes 
what has been an abhorrent practice and was told that it wasn't 
happening.
    Did not believe it and continued to work with the Chinese 
to make something different. In that regard, Jiefu Huang has 
indeed most recently been courageous, been at peril and the 
fight is going on even on this day as to who is going to 
succeed, whether the old system and the old guard will return 
to power or not.
    Mr. Smith. Could I ask you, are there zero cases of----
    Dr. Delmonico. I don't know that. Well, let me say this to 
you. I know about a month ago--and I get all of these anecdotes 
through the Declaration of Istanbul--a woman from Vancouver, 
Canada went to Tianjin and got herself a transplant.
    So we do know that it is occurring still within China. But 
it is not my--it is not my job to say to you that it is 
eradicated or completely stopped.
    Mr. Smith. Could I ask you--and this is strongly for the 
record to know this--are there any--I wrote a letter to Dr.----
    Dr. Delmonico. You wrote a letter to Philip O'Connell. We 
responded to you. I responded to you.
    Mr. Smith. Did we get a response?
    Dr. Delmonico. Yes, you did. No, there is a letter there.
    Mr. Smith. This is 10 questions.
    Dr. Delmonico. Mr. Smith, there is a letter from the 
Transplantation Society and I wrote to you as well personally, 
which we got no response--which we got no response.
    Mr. Smith. Well, we will respond to you.
    Dr. Delmonico. Thank you.
    Mr. Smith. Before we move on to the second round, with 
regard to the military hospitals--People's Liberation Army 
Hospital--do you have any access to that, those hospitals?
    Dr. Delmonico. No. I don't have access.
    Mr. Smith. So we have no idea. I mean, that is where many 
of these--I mean----
    Dr. Delmonico. Sure, it could be going on there.
    Mr. Smith. Okay.
    Dr. Delmonico. I cannot assure you of that. What I can 
assure is that the young people that are going to be the future 
transplant people of the country they are not in tune with that 
practice any longer. I have met them. I have been with them.
    Now, I recognize Mr. Gutmann is going to say this is 
anecdotal and et cetera.
    Mr. Gutmann. I love anecdotes.
    Dr. Delmonico. No, no. But I can only present to you--Mr. 
Smith, I can only present to you my experience, right, and say 
to you that we are trying to change it.
    Mr. Smith. I don't question your motives. In fact, you want 
to change it and you're part of the agent of reform. The 
concern is no one does duplicity better than the Chinese 
Communist Party and I gave you just a few examples and, again, 
when I had my hearing 20 years ago it was the military that was 
part of this process and security guards and we vetted the 
guard that came and gave this testimony, we protected his 
identity big time. He ended up getting asylum here, and Harry 
Wu helped to facilitate all of that, the great human rights 
leader.
    But, frankly, when I read the documentation it was 
overwhelming and the military was up to its gills in making 
money through this.
    Mr. Rohrabacher. If the other witnesses have a comment?
    Dr. Lee. Yes, can I have one.
    Mr. Rohrabacher. Then go for a second round? Everybody can 
have--everybody can have a comment. So we will start with Mr. 
Lee.
    Dr. Lee. Yes. Okay. Thank you, Chairman.
    We have heard that Dr. Delmonico talked about the organ 
trafficking and it is not limited in China. It is also 
happening in India, Egypt, within other countries as well. And 
also the Congress has introduced the H.R. 3694 regarding the 
organ trafficking.
    What I wanted to say is that in China the problem is much 
bigger than the organ trafficking and the numbers of these 
transplantation operations much bigger than the executed 
prisoners can be explained because if you look at the history 
between 1995 and 1990, executed prisoners is about 1,600 or 
1,700 a year. Then after the persecution of Falun Gongs, these 
numbers stays the same or even a little less.
    However, the transplantation numbers exploded. So we have 
tons of evidence showing that the majority of these donors were 
Falun Gong practitioners. And also, this is not just organ 
trafficking for, like, organ----
    Mr. Rohrabacher. It is very, very clear what you're saying. 
There is evidence----
    Dr. Lee. Yes, yes. But----
    Mr. Rohrabacher [continuing]. That the Falun Gong prisoners 
are a--there is a large--there is evidence to suggest they are 
way more representative than they are in the population in the 
number of donors supposedly that they are.
    Dr. Lee. I think the point is that we cannot, like, shift 
the focus because what we are talking about is a state-
sponsored crimes. It is organized by the Communist Party. It is 
not like the Mafia or some underground organized crime. This is 
like the entire country is organized--summoned to do these 
crimes, and you cannot compare this crime to any organ 
trafficking in other countries, even those also, you know, 
should be condemned and prevented.
    So I think also for the communist regime to admit that they 
have been using executed prisoners it is not because they have 
found their conscience.
    It is because the evidence about this harvesting of Falun 
Gong practitioners is too big and they cannot deny it so they 
can--they use the excuse of, you know, executed prisoners as 
kind of a lie, you know, to that they are not harvesting organs 
from a Falun Gong practitioner.
    So this is--this must be made clear that we cannot just 
condemn organ trafficking instead of, you know, losing the big 
picture.
    Mr. Rohrabacher. Mr. Gutmann.
    Mr. Gutmann. What is the question exactly?
    Mr. Rohrabacher. Do you have a comment? And then we are 
going to go to a second round and then----
    Mr. Gutmann. Well, nothing really. I would just point out 
sort of, I guess, supporting Congressman Smith's point, I am 
holding this document. Actually, it was just given to me today 
but these kinds of things keep turning up. This is the China 
Red Cross and this is--it is on the eve of New Year's so 12/30/
2015. This is the year that supposedly China went kosher and 
stopped harvesting any prisoners at all.
    The voluntary donors go up in one single day from the 30th 
of December to the night of the 31st of December of 25,000 
exactly--25,000 voluntary donors in a single day. That's the 
kind of thing that--you know, it is all very well to talk 
about--and I take your point about anecdotes because I write a 
lot of anecdotes too.
    But, you know, when you start to sift through this kind of 
data this is the kind of thing you keep turning up. These 
numbers are fictional. They are flat out lies. This is a 
government that lies as it breathes.
    So I think, you know, the point is I don't really agree 
with Dr. Delmonico that it is not at all their responsibility 
to do verification.
    I do believe that, you know, Jeremy Chapman, he's--wait a 
second--Jeremy Chapman has a right to say anything he likes 
about us but he basically said we were completely--had no 
credibility whatsoever.
    Mr. Rohrabacher. Okay. You made your point and----
    Mr. Gutmann. We have a right to--you know, I think, you 
know, the point is we are supposed to be working together on 
trying to verify these issues.
    Mr. Rohrabacher. And Mr. Matas, do you have a comment? Your 
microphone is not on.
    Mr. Matas. Yes. I had a couple comments.
    First of all, Representative Smith, I appreciate your--the 
context in which you put everything because I think this issue 
has to be approached contextually about what's generally 
happening in China now and in Chinese immediate history.
    Dr. Delmonico and I were on a panel a month ago in Rome 
together and I'll repeat here what I said then, that it is 
impossible to have an island of respect for the rule of law and 
human rights in the transplant field in a raging sea of tyranny 
and dishonesty everywhere else in the system--that in order to 
get the transplant system to work you have to have respect for 
the rule of law and human rights generally.
    That doesn't mean that the transplant profession is 
powerless and I think peer pressure is useful as leverage and 
it has worked in the past.
    Two years ago, the Transplantation Society had their 
international conference here in the United States, San 
Francisco. They rejected 35 papers from China and they didn't 
go to an international conference in China to which they were 
invited 2 years ago and that had an impact in China.
    This year, the Transplantation Society is meeting in Hong 
Kong. They haven't rejected the papers coming from China. Well, 
there certainly has been a lot more of them accepted and, 
again, than what happened 2 years ago. It hasn't been as 
systematic and I have looked and others have looked at the 
papers that are accepted and there is problems with those 
papers.
    And the point is not to argue about which papers should be 
accepted or not but to point out that the transplantation can 
be--transplantation profession can be useful but in order to be 
useful in exercising peer pressure they have to develop the 
kind of contextual approach that you, Representative Smith, has 
presented--to know that there is lack of access, that there is 
bamboozlement, that there is denial, that there is dishonesty 
and be able--not to be too easily beguiled.
    Mr. Rohrabacher. To be fair, we are going to give you 30 
seconds to answer the comments and then we'll go to the second 
round of questions.
    Dr. Delmonico. Transplantation is a noble act.
    Mr. Rohrabacher. What is that now?
    Dr. Delmonico. Transplant--organ donation and 
transplantation is a noble act. It has been my whole life and 
in all of our community it is a noble act. It is a giving of 
one person to another.
    So when David says it is a human rights issue, it is a 
human rights issue. And why is that? Because it must be for the 
community to safeguard the well-being of the living donor and 
for us to make certain that organs that are recovering from the 
deceased are fairly justly distributed throughout the society.
    So I completely agree with David's objectives of making 
this a human rights issue. It has been for the Transplantation 
Society and the World Health Organization of which I have 
representation and in this country to assure that. So please 
know of that.
    Mr. Rohrabacher. Okay. All right.
    Dr. Delmonico. Please know of it.
    Mr. Rohrabacher. All right. Thank you very much.
    This is for a second round which we will try to make a 
little bit quicker. Let me just note when you have an operation 
on someone and you're cutting them open to cut out a piece of 
cancer, that is a noble act.
    When you stick a bayonet in somebody and cut them open in 
order to suppress them or to create a feeling among a 
population that they are going to be--that you are now able to 
do a horrible thing like cutting somebody's head off like we 
see with ISIL, that is--okay, they are both cutting--they are 
both cutting somebody open.
    And in this particular case what we are talking about is 
cutting somebody open, okay, and from what I have heard--just 
from what I have heard, the verification is coming from--and to 
be very fair to you, sir, you are basing your policies which 
you wanted policies on what will happen in the future after the 
era of reform that is going to take place in China.
    And, frankly, I have been hearing about that for the last 
25 years, longer than that--that there is going to be this 
nirvana in China if we keep treating them much more openly and 
we open up the communications with us, as long as we can talk 
to some of the young people there and give them some of the 
skills they need, which sometimes when they turn around are 
able to use to build weapons or to build things that actually 
repress their own people.
    I have been hearing this for 25--we are going to have by 
just more interaction with them officially and telling them our 
expectations that they will be reformed.
    I don't see the reform in China. I see them making a lot 
more money. I see them building better systems of repression. 
You were talking about the old gang returning. I am sorry.
    I don't see the current gang to be so laudatory. We just--
what have we talked about here, infanticide--you know, where 
we--babies have been killed and now they say that is only going 
to be--people can have two babies before they mass slaughter 
all the rest of them. There has been, of course, forced 
abortion and as we mentioned--or infanticide against people 
with--even if babies are born, if they are born with defects--
am I wrong here--that in China today babies born with defects 
end up not getting home.
    How about the fact that there are no labor unions. There 
are no opposition newspapers. There are no opposition parties. 
There are none of these things, and what there is is torture. 
What there is is all these evil things that we have noted and 
the nirvana that I have been promised all of these years and 
we, Congress, has been promised will happen because if we just 
engage with them and get them into our economy they are going 
to become more noble people and accept the values of what, I 
guess, the establishment that you're talking about is going to 
be very happy with them and being happy with the establishment 
is what will get them to change their behavior.
    Dr. Delmonico. Chairman, I am not--I am not here to promise 
you anything and I am not here to have a conclusion. All of the 
comments that you made about reprehensible activity is 
something that I condone.
    Please, I want to make that clear in the record.
    Mr. Rohrabacher. Yes, sir.
    Dr. Delmonico. I don't condone any of that and I am not 
here to promise you anything and I am not here to assure you 
nirvana. I am only here to say that the international community 
has recognized this terrible practice in China and it wishes to 
change it and it has been asked to help to change it and 
instead of sitting on the sideline we are going there to 
develop an infrastructure of organ donation and transplantation 
that would be consistent with World Health Organization 
principles. That is my job. That is my job.
    Mr. Rohrabacher. Yes, and you----
    Dr. Delmonico. And I receive no funds for that, right. This 
isn't something which I am selling for.
    Mr. Rohrabacher. All I can tell you is setting up systems--
setting up systems----
    Dr. Delmonico. They are trying to set up systems that you, 
sir, would----
    Mr. Rohrabacher [continuing]. In which--setting up systems 
in which a--in which you are one of the participants of the 
system is a Nazi.
    You could expect that there would be some things coming out 
of that system that you don't like or the whole system will 
actually be perverted and used in a way that no one intended it 
to be used.
    For example, today people can be lulled to sleep in the 
United States as we have been for 20 years, lulled to sleep in 
to thinking there is a fundamental change in China. It is 
coming, there is an era coming, we can work with them now. 
Their new generation is so much different.
    I am sorry. I don't think the new generation is that much 
different in China today except maybe they are different from 
Mao and--but anyway, with that said I think that this is--thank 
you for--by the way, just thank the whole panel but thank you 
especially, Dr. Delmonico. You have been a real trooper to 
express your points of view here and I take it all in good 
faith and trust----
    Dr. Delmonico. Yes, let us all just sleep and we are 
working hard.
    Mr. Rohrabacher. All right. By the way, I get the same 
criticism when I am talking about trying to work with Russia to 
defeat radical Islam.
    But you know what? There has been reform in Russia. There 
has been no opposition parties, no opposition papers--all of 
that stuff I just mentioned. A lot of that stuff has happened 
at least part way in Russia. In China, there is no--they 
haven't had any of that.
    And also, you go to China and you notice that people, you 
know, there is an underground church movement there. But in 
Russia, they actually allow them now. They don't have to be an 
underground church in Russia.
    (Off mic comments)
    Well, I think that there has been some change in Russia and 
there hasn't been in China, and I think that is what it comes 
down to. And I think that the--it is the old thing. I say this 
all the time, for people who haven't heard it, is that the 
theory that if we treat them well and we let them into our 
markets and we increase their standard of living by allowing 
technology transfer and our marketplace is open that the people 
who run China and have been responsible for this infanticide 
and the forced abortions and all of these things that we are 
talking about here--organ transplants and then the rest--that 
those people will change their ways.
    They will become decent people and you will now have--
hugging them like they are liberals will change their heart. It 
won't, and I just--I call it the hug a Nazi, make a liberal 
theory and it just hasn't worked.
    And that is why today I believe in we need to be tough, 
really tough on these issues instead of going about it just to 
be really cooperative with them and I think that is the essence 
of it.
    Chris, would you like to take over?
    Mr. Smith. Thank you very much, Mr. Chairman.
    I am glad Chairman Rohrabacher mentioned labor unions. 
Again, another example of the country of China with its state-
run labor union, which is a farce, and no way comports with ILO 
standards. I have chaired hearings on that as well.
    Our annual report looks at that, at the Congressional-
Executive Commission on China, in great depth and there is no 
sense that--and I say that because there is right now an all-
out effort by Xi Jinping and others who would love to be part 
of the TPP to somehow suggest that they will conform or are 
conforming now even to those standards.
    I went and read the TPP. It leaves the enforcement 
mechanism to the country itself. So we would have to count on 
Chinese courts to say they do or do not have labor rights. 
There is no collective bargaining.
    Arrearages is a problem. OSHA-type protections are 
nonexistent and, again, we get this big tsunami of 
disinformation out of China about they have a state labor 
union, but it is not protected.
    So it is another example in a long series of examples of 
the context that Mr. Matas mentioned earlier, which I think is 
so important.
    So maybe another question would be Dr. Wong Jiefu, how many 
others do you have--remember, he is a former--I don't know who 
pays his salary now because usually it is the government for 
something like this but maybe not----
    Dr. Delmonico. He's the head of a--can I mention----
    Mr. Smith. Yes.
    Dr. Delmonico. He's the head of a foundation that has 
received funding from a benefactor independent of China to now 
make--for the support for this change. So----
    Mr. Smith. Now, do you work with others too and could you 
name any of those individuals, any other docs?
    Dr. Delmonico. Oh, yes.
    Mr. Smith. Who you would believe can tell us, for example, 
what is going on in the military hospitals?
    Dr. Delmonico. I can't tell you about the military 
hospitals.
    Mr. Smith. Okay. But that is a big point that needs to be 
emphasized here because that is where we believe a lot of this 
is happening.
    Dr. Delmonico. Let us emphasize it together. I can't tell 
you about the military hospitals. That is fine.
    Mr. Smith. Okay. And maybe our other witnesses would want 
to elaborate on that.
    You know, Xi Jinping, you know, this group that is 
supporting him and the foundation you mentioned has a draft NGO 
law that severs ties with----
    Dr. Delmonico. This is a foundation in organ donation and 
transplantation. It----
    Mr. Smith. But you are outside the country, right?
    Dr. Delmonico. No, no. It was a benefactor hotel magnate 
who supported this foundation.
    Mr. Smith. Is it a Chinese foundation or----
    Dr. Delmonico. It is a Chinese foundation, yes.
    Mr. Smith. Oh, it is in-country.
    Dr. Delmonico. It exists in Beijing but it is not a matter 
of the government and now Jiefu Huang is the head of that 
foundation and that is what supporting the infrastructure of 
developing organ procurement organizations similar to what we 
have in the United States.
    I can't, again, guarantee this is going to happen. We have 
to try, however. We have to try.
    Mr. Smith. Let me just ask you, I did ask--and maybe 
through Mr. Gutmann and Mr. Matas--Dr. Jeremy Chapman, as we 
know the former president of the Transplantation Society, 
called the estimates in your report ``pure imagination piled 
upon political interest.''
    I know because I work on human rights across the board 
around the world then when the B'nai Brith or the American 
Jewish Committee or some other organization dealing with 
Catholics or other, when we get information on Tibetan 
Buddhists we, obviously, try to do our due diligence and 
Congressmen and Senators to ensure that the information is 
accurate.
    But to single out the Falun Gong and the others who are 
victims of this in the way--in such a dismissive way, I mean, 
it is beyond insulting. I wonder what you think of that 
dismissal of your work.
    Mr. Matas. Well, I am a litigation lawyer so I am used to 
people disagreeing with me. In fact, that is my daily fare. So 
and but, certainly, this is not a work of my imagination.
    We, as I said, had in this report 2,400 footnotes. 
Everything we have done anybody can see. Every piece of 
evidence that we have looked at anybody else can look at. 
Anybody else who wants to look at it and has done the 
independent research has come to the same conclusion we had. In 
terms of political interest, I have none.
    I am not--I did want to comment about what Representative 
Rohrabacher said earlier, which--I mean, obviously, I agree 
with everything you said but I did want to point out that this 
isn't a China problem. It is a communism problem.
    This is the way communist--because I have been involved in 
human rights a lot of places around the world and I see this 
pattern behavior with the Soviet Union, with North Korea and so 
on. And, of course, the victims here are almost entirely if not 
entirely Chinese.
    I mean, we, who are standing for the victims, are doing 
more--we are more pro-China, more standing up for China than 
the Communist Party of China is and----
    Mr. Rohrabacher. I am really happy that you brought that up 
because I, obviously, have taken some very tough stands against 
the Chinese Government and I just--our greatest ally in the 
fight to create a better world is--are the people of China.
    And this is all--in fact, the motive here between Chris and 
myself, we are motivated by--we want to help the people of 
China. So thank you for making that distinction. We don't want 
anybody to think otherwise.
    By the way, but about communism--you know, I have studied 
communism from the time I was a kid. I mean, I actually read 
Marx and Lenin and all these things. This is certainly not a 
Marxist government there. I mean, when you have--this is more 
like a fascist--a Leninist fascism.
    But it is not--it is no longer the idea that they are going 
to create this new man, as Marx was suggesting, by ridding us 
of this profit motive and property rights to own things. But it 
is fascism of some kind.
    Mr. Matas. Well, and----
    Mr. Rohrabacher. But your point stands true. We are not--we 
are against these Chinese dictatorships and the Chinese people 
they are our greatest ally in making a more peaceful world.
    Mr. Matas. And my primary focus as a human rights advocate 
has been the victims, not the perpetrators. Those have to be 
our primary concern.
    Mr. Rohrabacher. Right. Right.
    Mr. Matas. You know, if Jeremy Chapman wants to insult me, 
I am not going to insult him back. I would just say look at our 
work. You don't have to--I don't care what people think of me. 
Just look at the stuff we have done.
    Mr. Smith. Let me ask you if I could, Dr. Delmonico, then 
Mr. Gutmann, if you wanted to comment as well.
    You were chairman of the TTS, what, between 2012 to 2014?
    Dr. Delmonico. To the present.
    Mr. Smith. To the present? Okay. Has TTS ever requested 
evidence that sourcing organs for transplant from prisoners 
came from military hospitals and whether or not it has ceased?
    Has that inquiry been made? Was it made under your watch? 
Has it been made since?
    Dr. Delmonico. I have gone to China and asked for a 
transparency of practice that is consistent with the World 
Health Organization principles.
    That means that every transplant, every donor should be 
recorded. That's what our--that is what our policy is. So I 
have looked at the Minister of Health----
    Mr. Smith. I know, but did you ask the military----
    Dr. Delmonico. I have looked at the Minister of Health just 
like we are looking at each other right now, sir, and I have 
said to the Minister, we must have a transparency of practice 
that says recording of every single transplant with every donor 
to know----
    Mr. Smith. Did you get it?
    Dr. Delmonico. What we got was--what we got was in response 
that was unacceptable and upon that unacceptability of knowing 
that the practice was still continuing I wrote an open letter 
with Jeremy Chapman and other members of the international 
community, which I can submit to you, and it has been, it 
should be before you--an open letter to President Xi Jinping to 
stop the corrupt practice because just as you we were not at 
all satisfied with the response that we got and we said in that 
letter that until there was some move of transparency which now 
is under the COTR system--there is a China Organ Transplant 
Registry system that is now in place--there will be no 
presentation of papers or in the medical literature of the 
China experience, and that was our position statement.
    Mr. Smith. But there was no delineation or anything by way 
of response that was going on in the military. Here's another 
reason why I am stressing the military.
    Xi Jinping and his crackdown on religion and this crackdown 
on NGOs--on religion NGOs now have to report to public security 
and not to what was a Communist Party apparatchik group before 
that.
    So he has militarized it even further, and since that is an 
area where we have an absolute dearth of information--you don't 
know it, I don't know it, we don't know what's going on there--
I think--does he even suggest that there might be zero or----
    Dr. Delmonico. That doesn't mean that I condone it.
    Mr. Smith. I know, but I think we have to insist on getting 
that and wonder why we are not getting the data. What are they 
hiding in the military hospitals?
    Dr. Delmonico. Agreed.
    Mr. Smith. Okay. Let me ask one final question, if I could, 
and this is, again, to just make sure this is absolutely on the 
record, are there any financial incentives or business dealings 
between individuals in the TTS leadership and mainland China's 
medical companies or any other mainland entities that could 
possibly create the appearance of a conflict of interest?
    Dr. Delmonico. I can only answer--my travel to China was 
supported--my travel to support--to go to China was paid for by 
the China Foundation.
    Mr. Smith. Is that a government foundation or not?
    Dr. Delmonico. It comes from--I am telling you that the 
foundation paid for my travel. That's who paid for the travel.
    Mr. Smith. But is that an entity of the Chinese Government?
    Dr. Delmonico. I am not aware that that is an entity of the 
Chinese Government. As I told you earlier, Mr. Smith, my 
understanding is that this foundation has been established by a 
benefactor who is a hotel magnate and that is how the 
foundation has been established.
    And the objective is to develop infrastructure for organ 
procurement organizations within the country that would comply 
with WHO principles. That's what we are up to and that is the 
truth of it.
    Mr. Smith. Would anybody else like to go? And thank you, 
Dr. Delmonico.
    Mr. Matas. Well, I don't want to comment on his--he is 
answering for himself. But I want to comment on the fact that 
he is only answering for himself because----
    Dr. Delmonico. Well, it is not for me to answer for 
everybody else.
    Mr. Matas. Fair enough.
    Mr. Smith. When you were present.
    Dr. Delmonico. Well, during my--no, there was none. So if 
that--thank you for that question of clarification. There was 
none.
    Mr. Smith. We have asked that question in a letter that was 
dated on April 7th to Dr. O'Connell and we are awaiting that 
answer. Thank you.
    Mr. Rohrabacher. Well, I think this has been a good hearing 
and, again, let me first of all congratulate--you knew, Dr. 
Delmonico, you knew there would be--this would be--you would be 
in the hot seat and----
    Dr. Delmonico. I don't mind that. We are working hard to 
make some change.
    Mr. Rohrabacher. I know. I know you don't and that is why I 
am thanking you for coming today.
    Dr. Delmonico. Came here on my own--at my own cost.
    Mr. Rohrabacher. Yes. I have--again, I have had to 
withstand--I honestly believe that----
    Dr. Delmonico. China is not paying for me to be here today. 
Thank you.
    Mr. Rohrabacher. Yes. I actually believe that we need to 
have better relations with Russia and I was--I have always been 
a big enemy of the Soviet Union from the time I was a kid and I 
at times stand alone like you do and the secret is, however, we 
have to be scrupulously honest with each other and we have to 
trust each other's points of view.
    But we need to express things and specifics and make sure 
that they make sense and that we as decision makers are getting 
a truthful view and an accurate view.
    I don't think that we have had the reform in China that we 
were promised.
    Dr. Delmonico. I am not alone, though, Mr. Chairman. I am 
here with the World Health Organization as well.
    Mr. Rohrabacher. Sure. Well, all I can----
    Dr. Delmonico. That is not alone.
    Mr. Rohrabacher. Well, you know, all I can tell you is that 
when you talk about certain people in the establishment who 
want this and that I would just have to say that, for example, 
the people would like to say there is a difference between 
corrupt practices and official corrupt practices.
    And in fact in places like China they are just meshed 
together because you have got an establishment. And again, it 
is not communism because these are millionaires.
    These guys who are--the supposed communist bosses are 
millionaires and own hotels and things and they get involved in 
that way. They have their own little--they have their 
establishment.
    Well, with that said, this is--what is important is that we 
have sent a message out that this issue, first of all, we have 
sent a lot of messages about China but in particular we have 
sent a message out that the issue of taking organs from a 
person who does not want to be a donor of an organ, especially 
if that person is a prisoner, especially if that person is a 
prisoner of conscience like the Falun Gong, that we are aware 
that that is happening in China today and that we are--we will 
not tolerate it and it is on our radar scope. That is what our 
message is today. Hopefully, that message will get in Beijing 
but also to other countries----
    Dr. Delmonico. India.
    Mr. Rohrabacher [continuing]. Where these things are 
happening.
    Dr. Delmonico. Mr. Smith, I hope you can include that in 
the TIP report. I hope that category can be--that is something 
I would ask you directly.
    Mr. Smith. If that legislation passes the Senate, it will.
    Dr. Delmonico. That is a reassuring comment. Thank you.
    Mr. Rohrabacher. All right. So with that, thank you, and 
Chris, I am going to give you the last----
    Mr. Smith. Oh, I think you have said it.
    Mr. Rohrabacher. Okay. There it is. Thank you all very 
much. This hearing is adjourned.
    (Applause)
    [Whereupon, at 3:46 p.m., the committee was adjourned.]

     
     
                           A P P E N D I X

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                                

         
  
  
Note: Material submitted for the hearing record by the witness Charles 
Lee, M.D., director of public awareness, World Organization to 
Investigate the Persecution 
of Falun Gong, is not reprinted here but is available on the Internet 
at: 
http://docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=105116
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
